Case '18-3635, Document 125,ATn$ftAzl,2894945, Pagel of

MANDATE

I

18-3695

United States a. Naquan Reyes

UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
SUMMARY ORDER

RULINGS BY SUMMARY ORDER DO NOT HAVE PRECEDENTIAL EFFECT.
CITATION TO A SUMMARY ORDER FrLED ON OR AFTER IANUARY 1, 2007, tS
PERMITTED AND IS GOVERNED BY FEDERAL RULE OF APPELLATE PROCEDURE
32.1.

AND THIS COURT'S LOCAL RULE bZ.T.T. WHEN CITING A SUMMARY ORDER

IN A DOCUMENT FILED WITH THIS COURT, A PARTY MUST CITE EITHER THE
FEDERAL APPENDIX OR AN ELECTRONIC DATABASE (WITH THE NOTATION
"SUMMARY ORDER'). A PARTY CITING TO A SUMMARY ORDER MUST SERVE A
COPY OF IT ON ANY PARTY NOT REPRESENTED BY COUNSEL.

At a stated term of the United States Court of Appeals for the Second Circuit,
held at the Thurgood Marshall United States Courthouse, 40 Foley Square, in the
City of New York, on the 8th day of ]uly, two thousand twenty.
PRESENT:

}

ION O. NEWMAN
PETER W. HALL,
GERARD E. LYNCH,
Circuit Judges.

UNITED STATES OF AMERICA,
Appellee,

No. 18-3695

V.

NAQUAN REYES,
Defendant-Appellant.

MANDATE ISSUED ON O7I29I2O2O

Case 18-36S5, Document 125,07129ftA2A,2894945, Page2 of

I

FOR APPELLEE:

Kpvw TRowEL, Assistant United
States Attomey (Elizabeth Geddes,
Assistant United States Attorney, on
thebriefl, for Richard P. Donoghue,
United States Attorney, Eastern
District of New York, Brooklyn, NY.

FOR DEFENDANT-APPELLANT:

Axpnsw H. FnemeLD, Law Office of
Andrew Freifeld, New York, NY.

Appeal from a judgment of theUnited States District Court for the Eastem
District of New York (Johnson, /.).
UPON DUE CONSIDERATION,IT IS HEREBY ORDERED, ADIUDGED,

AND DECREED that the judgment of the district court is AFFIRMED.
In February 2015, Defendant-Appellant Naquan Reyes pleaded guilty to one
count of conspiracy to commit bank fraud and one count of obstruction of justice

rfrurder in the second degree.

See 18 U.S.C. SS 1349,

1344;1512(a)(l)(C),2. The

United States District Court for the Eastem District of New York (Townes, /.)
sentenced Reyes

to 30 years' imprisonment on the bank fraud count and

liJe

imprisonment on the obstruction of justice murder count. In October 20L8, on
remand from this Court in light of an error in the district court's original Guidelines

calculation,

see

United Stqtes a. Reyes,7L8F. App'x 56,62 (2d Cir. 2018) (summary

Case 18-3695, Document 125,A7n\ftAzA,2894945, Page3 of

I

order), the district court (|ohnson, /.)1 resentenced Reyes, based on the corrected
Guidelines calculatioru to the same terms of imprisonment

as the

original sentence:

30 years' imprisonment on the bank fraud count and life imprisonment on the

obstruction of justice murder count. Reyes appeals, arguing that his sentence is

procedurally and substantively unreasonable. We assume the parties' familiarity

with the underlyirg facts, the procedural history of the

case, and the issues on

appeal.

Generally,

w€ "review a

sentence

for

procedural and substantive

reasonableness under a'deferential abuse-of-discretion

standard."' United Stqtes

a. Singh, 877 F.3d 107, 1.15 (2d Cir. 2017) (quoting Gall a. United States,552 U.S. 38,
4L (2007)). Where, as here, a defendant fails to raise a procedural objection at the

titne of sent'bncing, we review for plain error.2

See

United States a. Caltabiano,'871.

1

The case was reassigned to Judge Sterling Johnson after Judge Sandra Townes passed
away in 2018.

2

review. He
cites several cases for this proposition. See United States a. Jones,878 F.3d '1-,0,1.5 (2d Cir.
2017); United States a. Wernick, 691F.3d 108, 113 (2d Cir. 2012); United States a. Gamez, 577
F.3d394,397 (2d Cir.2009) (per curiam);lJnited States a.Williams,399F.3d450,454-57 (2d
Cir. 2005). In United States a. Williams, we said that review of a sentencing error is
"fundamentally different" from review of a jury trial error. 399 F.3d at 456. Because of
this, we concluded that "there is no need to apply the plain error doctrine in the sentencing
context with precisely the same procedure that has been used in the context of review of
errors occurring at trtal." Id. at 457. Here, the government a/gues that we should
Reyes implies that we should apply a less stringent plain error standard of

Case 18-3S95, Document 125,0712912A2A,2894945, Page4 of

F

I

3d 21A, 219 (2d Ci:r. 2017). Plain error exists when "(1) there is an error;

(2) the

error is clear or obvious, rather than subject to reasonable dispute; (3) the error
affected the appellant's substantial rights, which

in the ordinary

case means

it

affected the outcome of the district court proceedings; and (a) the error seriously
affects the fairness,

integrifi, or public reputation

of judicial

States u. Marcus,560 U.S. 258, 262 (2010) (alteration and

proceedings." United

internal quotation marks

omitted).
Section 3553(a) of Title 18 "requires a district court to consider several factors

in determini.g u sentence." United States a. Wagner-Dano, 679 F.3d 83, 88 (2d Cir.

2012). The district court errs procedurally if, inter alia, "7t does not consider the
$ 3553(a)

factors, or rests its sentence on a clearly erroneous finding of. fact."

United States u. Caaera,550 F.3d 1,80, 190 (2d Cir. 2008) (en banc). Generally, "We
presume that a sentencing judge has faithfully discharged her duty to consider the

statutory factors." Wagner-Dano, 679 F.3d at 89 (internal quotation marks

omitted).

We do not require "robotic incantations" from the district court to prove

decline to apply the less stringent form of plain error review because "'a11 cases which
apply our relaxed form of plain error review appear to involve conditions of supervised
release."' Gov. Br. at24n.7 (citing llnited States a. Bowman,797 F. App'* 580,584 n.1 (2d
As
in Bowman,I "we need not reach the quesrion
of how
I
r-

ruril$ €NnE smrhnsillnl.rn$;nnnc
sarne.

797 F.

Apy'*

at 584 n-1..

Case 18-36$5, Document 125,ATn9ftCIzA,2894945, Page5 of

I

that it has considered each $ 3553(a) factor, id. (internal quotation marks omitted),

but "we require more than a few magic words," United States a. Corsey,723 F.3d
366,376 (2d Cir. 20'1.3), as corrected

must "create enough of

a

fiuly 24,20L3). In essence, the district court

record so that an appellate court can be confident that the

sentence resulted from the district court's considered judgment as

to what was

necessary to address the various, often conflictin& purposes of sentencing." ld.

(internal quotation marks omitted).

Here, the district court explicitly referred to $ 3553(a) and some of the
relevant factors when resentencing Reyes.

See

App.

1,66

("lSectionl 3553(a) says

that I must impose a sentence that is sufficient but not greater than necessary to
comply with the purposes of the statute. I must take into consid.eration the nature
cif the circuhistances of the offense. . .

.

the characteristics of this defendant

I take into consideration the history"rind
tS

3553(a)(t)1.

I must also take into

consideration the seriousness to promote a respect for the law [$ 3553(a)(2)(A)].').

Additionally, the district court stated, "I listened to the argument of counsel [and]

I read the submissions." ld. Despite this,

Reyes argues that the district court

failed to address several of the mitigating factors that he asserted in his sentencing

memor€uldum. We, however, "'never have required a District Court to make

5

Case 18-3695, Document 125,AT129ftA2A,2894945, Page6 of

I

specific resPonses to points argued by counsel in connection with sentencing."'
Wagner-Dano, 679 F.3d at 89 (quoting United States u. Bonilla,618 F.3d 102,

tll

(2d

Cir. 2010)). For these reasons, and because we generally presume that the district

court has considered $ 3553(a)'s factors even if it does not list all of them on the
record,

see

Wagner-Dano, 679 F.3d at 88-89, we conclude that the court did not err

procedurally when resentencing

Reyes , see Caaera, 550 F.3d

at 190; see also Marcus,

560 U.S. at262.

Tuming to our review of the district court's explanation for the sentence
imposed, $ 3553(c) requires that "[t]he court, at the time of sentencing, shall state

in open court the reasons for its imposition of the particular sentencg and, if the
sentence . . . is of the kind, and within the range, described in subsection (a)(4), and

that range exceeds 24 months, the reason for imposirg a sentence at a particiilar

point within the range." 18 U.S.C. g 3553(c). As with g 3553(a), "[t]here is no
mechanical test for compliance with $

3553(c) ., w€ simply

expect the court to

identify the consideration or considerations driving the selection of the sentence
that was actually

imposed."

l.Inited Stntes a. RosA,957 F.3d1L3,118 (2d Cir.

"Indeed, the'statement'requirement of

$ 3553(c) sets a

2O2O).

low threshold." Id. at1,19.

Case 18-36$5, Document 125,07129nA2A,2804945, Page7 of

Here, the district court explained in open court that

B

it had listened to the

arguments presented by Reyes's counsel and had "read the submissions." App.

L66.

The court also explained that it considered the history and characteristics of

Reyes as

well as the nature of the offense. Because the district court found the

victim's murder "horrendous," arrd because "[i]t was personaf the deceased was
strangled," the court sentenced Reyes to life in prison. Id. 1.65. Although the
statement is brief, this is not a case where the district court failed to provide any

explanation for its sentence. See Rosa,957 F.3d at

L'J.6,

122. The district court's

statement of reasons for the sentence imposed is not so lacking that we are required

to conclude the court clearly erred in resentencing Reyes. Caltabiano,871. F.3d at
219.

'

Reyes'argues further that his sentence of life imprisonment is substantiv€ly

unreasonable. Not only does this argument fail on the merits, but Reyes has
waived the argument by insufficiently developing it in his brief; Reyes's only effort

to do so is a paltry

sentence lacking any cite

to applicable case

law.

Reyes

therefore has waived his argument that his sentence is substantively unreasonable.
See

United States a. Botti,7Ll F.3d 299, 313 (2d Cir. 2013) ("[I]ssues adverted to in a

perfunctory manner, unaccompanied by some effort at developef argumentatiory

Case 18-3695, Document 125,AT129ftA2A,2894945, Page8 of

are deemed waived." (internal quotation marks

I

omitted)). Even if it were not

waived, however, based on the totality of the circumstances, and giving due
deference to the district court's determination, we conclude that the sentence of life

imprisonment is not substantively unreasonable. The sentence was within the
Guidelines range of 360 months to

life. It cannot be said that the sentence was

"shockingly high" or "unsupportable as a matter of law." l.Inited States a. Douglas,
713 F.3d 694,700 (2d Cir. 2013) (intemal quotation marks omitted); see also l-lnited
States o. Frias,521 F.3d 229,236 (2d

Cir. 2008) (affirming within-Guidelines sentence

of life imprisonment for conspiracy to commit murder in connection with a
narcotics offense).
We have reviewed the remainder of Reyes's arguments and find them to be

r,tlithout

merit. For the foregoing reasons, the judgment of the district couit is

AFFIRMED.
FOR THE COURT:
Catherine O'Hagan Wolfe, Clerk of Court

f,m*Cffif

ffip#tagffir

